MORE INCURRED-COST AUDITS OF DOT
PROCUREMENT CONTRACTS SHOULD
          BE OBTAINED
          Office of the Secretary

       Report Number: FI-2007-064
       Date Issued: August 29, 2007
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: More Incurred-Cost Audits of DOT                                     Date:    August 29, 2007
           Procurement Contracts Should Be Obtained
           Report Number FI-2007-064

  From:    Mark H. Zabarsky                                                          Reply to
                                                                                     Attn. of:   JA-20
           Deputy Assistant Inspector General for
            Financial Management Audits

    To:    Assistant Secretary for Administration


           This report presents the results of our audit concerning the use of incurred-cost
           audit services on Department of Transportation (DOT) procurement contracts. It
           does not include the Federal Aviation Administration’s (FAA) use of contract
           audit services. A report on FAA’s use of audit services was issued in May 2002.1

           Annually, DOT spends about $6 billion in procuring goods and services to support
           departmental operations—about $2 billion if FAA is excluded. An efficient and
           effective contract management and administration program considers the use of
           contract audits to ensure that claimed contractor costs are accurate and allowable.
           Contract audits are necessary throughout a contract’s life cycle. For example,
           incurred-cost audits determine whether costs charged to Government contracts are
           allowable, allocable, and reasonable, in accordance with contract terms and
           applicable Government acquisition regulations.

           Like most Federal agencies, DOT primarily uses the Defense Contract Audit
           Agency (DCAA) to perform incurred-cost audits of contractors. DCAA’s work
           has shown many instances in which Federal Government agencies were overbilled
           or the amounts paid, claimed, or both were questionable. In fiscal year (FY) 2006,
           DCAA reported about $2.3 billion in net savings to the Federal Government as a
           result of all contract audits.

           The objectives of the audit were to determine whether DOT and its Operating
           Administrations were (1) obtaining contract audit services in accordance with
           1
               “Report on Oversight of Cost Reimbursable Contracts,” May 8, 2002, OIG Report Number FI-2002-092. Most OIG
                reports can be accessed on our website: www.oig.dot.gov.
                                                                                  2


policies, procedures, and acquisition regulations and (2) effectively using audit
results to recover overpayments to contractors. This audit was performed in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. Our scope and
methodology are described further in Exhibit A.

BACKGROUND
To strengthen oversight of agency acquisition activities, Congress enacted the
Services Acquisition Reform Act of 2003, which established Chief Acquisition
Officers at Federal agencies. The Chief Acquisition Officer is responsible, in part,
for monitoring the performance of acquisition activities and programs of the
Department and evaluating the performance of those programs. The Senior
Procurement Executive is responsible for direction of the procurement system of
the Department, including implementation of unique procurement policies,
regulations, and standards. In DOT, the Deputy Secretary is the designated Chief
Acquisition Officer, who has delegated the day-to-day operations to the Senior
Procurement Executive in the Office of the Secretary. The Senior Procurement
Executive reports directly to the Assistant Secretary for Administration.

RESULTS IN BRIEF
Since 2005, departmental officials have emphasized incurred-cost audits and have
achieved success with them, recovering a high percentage of contractor
overpayments. Specifically, the Assistant Secretary for Administration issued a
memorandum in November 2005 to increase awareness and address the
importance of incurred-cost audits; the Senior Procurement Executive has begun
implementing a new approach for obtaining these audits; and the Department has
achieved considerable cost savings through incurred-cost audits, recovering over
$4 for every audit dollar DOT spent for these audits.

More, however, needs to be done. Use of cost-reimbursable contracts increases
the Government’s risk because contractors generally have little incentive to
control costs. In reviewing 30 cost-reimbursable contracts to assess the extent to
which audits were obtained and used to administer these contracts, we found that
Operating Administration contracting offices:

   • Obtained incurred-cost audits on 12 of the 30 contracts, having a total value
     of more than $640 million. For the remaining 18 contracts, audits were not
     obtained and the required justification for not obtaining them was not
     provided for 17 of the 18. These 18 contracts represented a value of more
     than $600 million.
                                                                                   3


   • Resolved questioned costs of about $600,000 that DCAA identified for 3 of
     the 12 audited contracts. However, for 6 of the 12, contracting officers
     took no action to resolve questioned costs of $1 million. No action was
     required for the remaining three contracts.

Exhibit B details the results of the 30 contracts we reviewed.

In addition to the 30 contracts we audited, we obtained historical data from DCAA
about audit reports (excluding FAA) issued between FYs 2001 through 2005.
During that time, DCAA identified $48 million in questioned costs, of which the
Department resolved about $36 million. While resolving three-quarters of the
questioned costs, the Department missed opportunities to identify and recover
almost $12 million in questioned contract costs. These conditions occurred
because contracting officers did not consistently follow departmental and Federal
Acquisition Regulation (FAR) guidance for obtaining incurred-cost audits, nor did
they consistently take adequate action to resolve audit findings for the audits
DCAA conducted.

The Office of the Senior Procurement Executive took a significant step to improve
the process for obtaining contract audits after we briefed the office on our
preliminary audit findings. In conjunction with our office, the Office of the Senior
Procurement Executive met with DCAA to discuss best practices for obtaining
audit support services. According to DCAA, agencies with large procurement
activities, such as the Department of Defense, Department of Energy (DOE), and
National Aeronautics and Space Administration (NASA), do not rely solely on
individual contracting offices to select contracts for audit. Instead, these agencies
work with DCAA to identify audit opportunities using a structured approach that
takes into consideration the agency’s entire contracting portfolio, contractor risk
assessment, and the status of individual contracts. We realize that a change in
approach of this magnitude is likely to take some time to effectively implement at
DOT, but actions taken by the Senior Procurement Executive are good first steps.

The Office of the Senior Procurement Executive provided DCAA with a list of all
DOT (excluding FAA) cost-reimbursable contracts having a value of more than
$1 million. DCAA was asked to identify contracts for audit and estimate the
number of hours needed to perform incurred-cost audits. The Operating
Administrations were provided with DCAA’s recommendations in August 2006 to
facilitate the development of their FY 2007 audit plans. However, Operating
Administrations have made little progress in obtaining these audits. As of
March 31, 2007, Operating Administrations had implemented less than 3 percent
of the number of hours that DCAA recommended for DOT’s high-risk contracts
(356 audit hours implemented versus 13,934 hours recommended).
                                                                                   4


The Senior Procurement Executive’s initiative to use a structured approach for
obtaining contract audit services has the potential of significant cost savings for
the Department. If fully implemented, this new process should reduce the
Department’s risk of fraud, waste, and abuse on cost-reimbursable contracts.
However, DOT Operating Administrations need to obtain incurred-cost audits to
fulfill this new structured approach and contracting officers need to resolve audit
findings in a timely manner.

We provided a draft of this report to OST for comment on June 20, 2007, and on
August 7 we received OST’s response. OST generally concurred with our
recommendations, stating that during the last 5 years, several alternatives were
considered to obtain more incurred-cost audits. OST said that, unfortunately,
these alternatives had not moved forward, due largely to resource constraints. A
complete list of recommendations can be found starting on page 8 of this report.
OST’s response can be found in its entirety in the appendix.

FINDING

DOT’s Operating Administrations Are Recovering Contractor
Overpayments, but More Audits Are Needed
While the rate of recovery of contractor overpayments resulting from incurred-cost
audits has been positive, contracting officers at seven of the eight Operating
Administrations audited were not consistently obtaining such audits. As a result,
the Department may have lost opportunities to recover additional questioned
contract costs. This occurred because contracting officers did not follow the FAR
and departmental guidance for obtaining audits.

We judgmentally selected for review 30 contracts valued at about $1.2 billion.
Contracting officers did not ask for incurred-cost audits on 18 of these contracts,
valued at about $600 million. The FAR requires contractors’ indirect cost rates to
be established annually, using contract audits, unless limited exceptions apply.
The Department’s Transportation Acquisition Manual (TAM) states, “Under most
circumstances, DOT recognizes that . . . incurred-cost audits . . . are the preferred
mechanism to assist the contracting officer in ensuring the validity of direct and
indirect costs billed under cost-reimbursement contracts.”

The TAM also requires contracting officers to justify and document in the contract
files the reasons for not obtaining independent audits. Maintaining documentation
is extremely important because it allows others who might assume responsibility
for the contract to know what prior events and decisions have transpired. We
found no such documentation for 17 of the 18 contracts. For the remaining one
contract, the contracting officer provided adequate justification.
                                                                                  5


New Approach for Obtaining Audits Emphasizes Risk Assessment
In response to our preliminary conclusions that Operating Administrations would
benefit from obtaining more audits, the Assistant Secretary for Administration
issued a memorandum on November 22, 2005, emphasizing the importance of
these audits under existing procedures and guidance. Further, in March 2006, the
Office of the Senior Procurement Executive began working with DCAA and the
Operating Administrations on a new approach to identify a best practice for
obtaining audit support services.

According to DCAA, agencies with large procurement activities work with DCAA
in a more structured approach to identify contracts for audit. Such an approach
considers the agency’s entire contracting portfolio, risk assessment on the
contractors, and the status of individual contracts. After the analysis, procurement
officials decide what audits to obtain.

For FY 2007, the Office of the Senior Procurement Executive began implementing
such a structured approach for audit support services. DOT provided DCAA with
a list of all cost-reimbursable contracts (excluding those of FAA) awarded
between FYs 2003 and 2006 that had obligated funds greater than $1 million each,
with a total obligated value of about $700 million. The Office of the Senior
Procurement Executive requested that DCAA analyze the list and estimate the
number of hours needed to perform incurred-cost audits.

DCAA estimated that about 23,000 hours, at an estimated cost of $2.4 million,
would be needed. According to DCAA, about 14,000 of these hours were needed
to conduct audits of contracts it deemed high risk, based on experience with the
contractors. These audits had an estimated cost of $1.4 million. The Office of the
Senior Procurement Executive provided the list to the Operating Administrations
to use as a tool in estimating the number of hours of audit support required in
FY 2007.

Operating Administrations Planned Only Two-Thirds of High-Risk Audits
Recommended by DCAA, and Did Not Implement Their Own Plan to
Obtain Audits
Despite DCAA’s estimate, the Operating Administrations planned to obtain only
about 8,700 hours, 63 percent of what DCAA identified as high risk. The Office
of the Senior Procurement Executive did not require Operating Administrations to
provide documentation justifying their deviations from DCAA’s
recommendations. However, as of March 31, 2007, Operating Administrations
had requested only 356 contract audit hours, less than 3 percent of the
13,934 hours recommended for high-risk contracts (see table 1). While few audits
have been requested, five of the eight Operating Administrations indicated their
intention to obtain, in FY 2007, the planned number of audit hours. Operating
                                                                                                                          6


Administrations must ensure that needed incurred-cost audits are obtained and the
Head of the Contracting Activity for each Operating Administration must be
aware of these responsibilities.

          Table 1. FY 2007 Contract Audits Recommended Versus
                        Planned, as of March 2007
                                                                   Audit Hours
                          Total Audit                             Recommended                Audit             Audit
                             Hours                                for High-Risk              Hours            Hours
           Operating     Recommended                               Contracts by             Planned          Requested
     Administration(OA)*  by DCAA**                                   DCAA                   by OA            by OA
     FHWA                         1,860                                    1,000                1,034              196
     FRA                          1,280                                    1,280                    0                 0
     FTA                          1,300                                        0                  900                39
     MARAD                        1,520                                    1,360                3,556                 0
     NHTSA                            0                                        0                   40                 0
     OST                          3,580                                    2,080                    0                 0
     PHMSA                          280                                        0                   94                21
     RITA/VOLPE                  13,374                                    8,214                3,130              100
     Total                       23,194                                   13,934                8,754              356
 * See Exhibit A for definitions of acronyms.
** Although DCAA indicated a potential for combining work, the number of hours shown assumes that each audit is
      accomplished independently and is not combined with other ongoing work at DCAA.

Contracting Officers Are Effectively Recovering Questioned Costs, but
Opportunities for Improvement Exist
Contracting officers are taking effective actions to recover overpayments made to
contractors and are achieving significant savings, but opportunities for
improvement exist. DCAA identified $48 million in questioned costs on all DOT
contracts (excluding FAA) for FYs 2001 through 2005 (see table 2). DOT
contracting officers addressed $36.3 million of those questioned costs. Of that
amount, they recovered about $29.5 million—a sustention rate 2 of 81 percent.
The DOT sustention rate is considerably higher when compared with the Federal
Governments rate of 63 percent. 3 However, contracting officers have not taken
consistent actions in a timely manner to resolve the remaining $11.7 million. By
applying the sustention rates of 63 percent and 81 percent to the $11.7 million,
DOT has the potential to recover from $7.4 million to $9.5 million more in
contractor overcharges.

2
    The sustention rate is calculated by dividing the questioned costs sustained by the questioned costs. Questioned costs
    sustained is that portion of costs questioned by the auditor upheld as a result of actions taken by either the contractor
    or the contracting officer during negotiations.
3
    Based on DCAA data for FYs 2001 through 2005.
                                                                                 7



 Table 2. Questioned Costs on All DOT Contracts by Operating
           Administration, FY 2001 through FY 2005

                        Operating                             Questioned Costs
                      Administration*                          ($ in millions)
               FHWA                                                $41.8
               FRA                                                 $ 1.4
               FTA                                                 $ .1
               MARAD                                               $ 4.1
               NHTSA                                               $ 0
               OST                                                 $ .2
               PHMSA                                               $ 0
               RITA/VOLPE                                          $ .4
               Total                                               $48.0
               * See Exhibit A for definitions of acronyms.

Of the 30 contracts we sampled during this audit, incurred-cost audits were
performed on only 12. Contracting officers took actions to resolve questioned
costs of about $600,000 that DCAA identified for 3 of the 12 audited contracts.
However, contracting officers took no action to recover about $1 million of
questioned costs on 6 contracts. By applying the sustention rates of 63 percent
and 81 percent to the $1 million, DOT has the potential to recover from $630,000
to $810,000 more in contractor overcharges. No action was required for the
remaining three contracts.

Contracting officers stated that they wait until contract closeout to resolve DCAA
audit reports, contrary to Federal regulations. However, the longer a contracting
officer delays action to recover savings, the more difficult it may become to
resolve discrepancies and other problems. Further, accurate records and
knowledgeable personnel involved with the contract may become difficult to find.
For example, in a contract for railroad services for a Government-owned, Federal
Railroad Administration contractor-operated facility, valued at about $42 million,
DCAA questioned $485,000. Although the audit was completed in 1999, the
contracting officer would not act to recover the costs until the contract had been
closed out. As of November 2006—7 years later—the contract still had not been
closed because the contracting officer was waiting for a supplementary report
from DCAA. The contracting officer asked DCAA to address an issue unrelated
to the questioned costs of $485,000 identified in the 1999 report. Although this is
an example of a worst case scenario, DOT and its Operating Administrations need
to be more vigilant in recovering savings from audits.

Office of Management and Budget Circular A-50 requires agencies to assign a
high priority to the resolution of audit recommendations and to the implementation
                                                                                 8


of corrective actions. Its guidance states, “Resolution shall be made within a
maximum of six months after issuance of a final report or, in the case of audits
performed by non-Federal auditors, six months after receipt of the report by the
Federal Government. Corrective action should proceed as rapidly as possible.”

We recognize that external circumstances beyond the control of the Operating
Administrations, such as a contractor’s appeal of a contracting officer’s decision,
may require resolution of audit findings to take more than 6 months. However, the
Department should emphasize to Operating Administration contracting officers the
importance of resolving audit findings in a timely manner.

Given the potential benefits of incurred-cost audits—such as savings of
$29.5 million for FYs 2001 through 2005—DOT must consider giving priority to
those expenditures that yield such a good return on investment. The lack of audits
also increases the vulnerability of DOT’s contracting dollars to fraud, waste, and
abuse.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Administration direct the Senior
Procurement Executive to:

1. Require Operating Administrations to:

   a. Review the FY 2007 contract audit plan submitted to the Office of the
      Senior Procurement Executive and document justifications for any revision;

   b. Submit the revised FY 2007 contract audit plan to the Office of the Senior
      Procurement Executive for approval;

   c. Resolve the $12.7 million ($11.7 million and $1 million) in questioned
      costs that Operating Administrations have not addressed and report any
      resulting costs recovered to our office, the Senior Procurement Executive,
      and Administrators of each Operating Administration; and

   d. Update the list of DCAA-reported unresolved questioned costs that are
      more than 6 months old as of October 2006; resolve those costs; and report
      any costs recovered to our office, the Senior Procurement Executive, and
      Administrators of each Operating Administration.

2. Ensure that Operating Administrations obtain incurred-cost audits and that
   audit report recommendations are resolved within 6 months of issuance of the
   final report.
                                                                                  9


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to the Office of the Secretary of Transportation
(OST) for comment on June 20, 2007, and on August 7 we received OST’s
response, which can be found in its entirety in the appendix. OST generally
concurred with our recommendations and stated that during the last 5 years,
several alternatives were considered to further the actions taken to obtain more
incurred-cost audits. According to OST, unfortunately, aside from some limited
application of the enhanced planning option, these alternatives have not moved
forward, due largely to resource constraints. OST also said that dedicated
contracting resources, both in the Operating Administrations and in the Office of
the Senior Procurement Executive, must be increased in order for the Department
to have sufficient capability to better ensure that contract audits are effectively
planned, implemented, and acted upon.

OST further stated that without a detailed examination of each contract, the
questioned costs, and the reason that the questioned costs have not been acted
upon, it is impossible to determine the accuracy of potential recoveries. However,
OST agreed that our estimated savings from $8.0 million to $10.3 million related
to resolution of outstanding incurred-cost audits for FY 2001 through FY 2005 is
reasonable for tracking purposes.

The corrective actions that OST plans to take adequately address the intent of our
recommendations.       Management responses to our recommendations are
summarized below:

Recommendation 1.a.: OST concurred, stating that the Office of the Senior
Procurement Executive will issue a memorandum to the Operating Administration
Chiefs of the Contracting Offices within 30 days after the issuance of our final
report. The memorandum will request Operating Administrations to review the
FY 2007 contract audit plan and document justifications for revisions.

Recommendation 1.b.: OST concurred in part, stating that since it is well into
the 4th quarter of the fiscal year, it would be most constructive for the Operating
Administrations to identify planned contract audits that were not implemented in
FY 2007 and include them in their FY 2008 audit plan. OST also stated that the
memorandum described in response to recommendation 1.a. will include direction
for Operating Administrations to provide a copy of the FY 2008 plan to the Office
of the Senior Procurement Executive for review before the start of the fiscal year.

Recommendation 1.c.: OST concurred, stating that the memorandum described
in response to recommendation 1.a. will encourage Operating Administrations to
expeditiously complete action on any pending audit findings with questioned costs
                                                                                   10


and report the costs to the Head of the Contracting Activity (HCA) and the final
disposition to the Office of the Senior Procurement Executive.

Recommendation 1.d.: OST concurred, stating that the memorandum described
in response to recommendation 1.a. will direct the Operating Administrations to
update the list of DCAA-reported unresolved questioned costs that are more than 6
months old as of October 2006, resolve those costs, and report results to the HCA
and the Office of the Senior Procurement Executive.

Recommendation 2.: OST concurred in part, stating that the Office of the Senior
Procurement Executive does not believe it is in a position to “ensure” our
recommended actions. Instead, the Office of the Senior Procurement Executive
will use the aforementioned memorandum to reiterate the Department’s policy to
the Operating Administrations regarding the use of incurred-cost audits and the
forum provided by the Procurement Management Council to ensure complete
understanding of the policy. OST further stated that although it is not always
possible to resolve audit report recommendations within 6 months of the issuance
of the final report, in FY 2008, the Operating Administrations will begin
submitting quarterly status reports against their audit plans. The status reports will
address audit hours used, resolved and unresolved questioned costs, and whether
justifications have been placed in the contract file where audits were not
requested.

ACTION REQUIRED
OST’s planned actions satisfy the intent of our recommendations, subject to
follow-up provisions in DOT Order 8000.1C. We appreciate the courtesies and
cooperation of Department of Transportation representatives during this audit. If
you have any questions, please call me at (202) 366-1496.


                                          #

cc: Deputy Secretary
    Assistant Secretary for Programs and Budget/Chief Financial Officer
    Martin Gertel, M-1
                                                                                 11




EXHIBIT A. SCOPE AND METHODOLOGY
We performed this audit at eight procurement offices of the following Operating
Administrations:

   • Federal Highway Administration (FHWA)

   • Federal Railroad Administration (FRA)

   • Federal Transit Administration (FTA)

   • Maritime Administration (MARAD)

   • National Highway Traffic Safety Administration (NHTSA)

   • Office of the Secretary of Transportation (OST)

   • Pipeline and Hazardous Materials Safety Administration (PHMSA)

   • Research and Innovative Technology Administration (RITA) (Volpe
     National Transportation Systems Center)

We used the DOT Contract Information System to identify a universe and sample
of cost-reimbursable contracts for audit. We initially selected a sample of
9 contracts, valued at about $925 million, consisting of high-dollar-value contracts
issued by the procurement offices of the Operating Administrations audited. We
judgmentally selected the contracts reviewed from a universe of 570 cost-
reimbursable and time-and-materials contracts with a value of about $2.4 billion.
Subsequently, at the request of the Office of the Senior Procurement Executive,
we expanded the scope of contracts reviewed from 9 to 30. We judgmentally
selected the additional 21 contracts with a value of about $320 million from a
universe of 395 cost-reimbursable and time-and-materials contracts with a value of
about $2.2 billion. We validated that the information in the DOT Contract
Information System was reliable. We audited at least one contract from each of
the eight procurement offices.

We reviewed documents maintained by procurement offices, such as price
negotiation memorandums, DCAA audit reports, contractor invoices, and contract
modifications. We chose for review contracts on which we believed sufficient
time should have elapsed for incurred-cost audit activity to have occurred. We
performed a detailed review of each contract, to include the contract files and



Exhibit A. Scope and Methodology
                                                                               12


sources, such as DCAA information, to determine the extent of contract audit
activity involving each contract.

To determine the costs identified by DCAA as questioned, we obtained data from
DCAA’s management information system on all DCAA DOT-related audit reports
with questioned costs issued between October 2000 and September 2005. To
develop an understanding and assess the reliability of the information included in
the database, we held discussions with and obtained documentation from DCAA
officials.

To determine the actions taken by DOT in response to DCAA audit findings, we
selected the 12 contracts for which an incurred-cost audit had been performed.
We obtained the DCAA audit reports for the 12 contracts and interviewed
contracting officers to determine the actions taken to address the DCAA audit
findings and looked for key documentation, such as price negotiation
memorandums. We also used the data obtained from the DCAA management
information system to identify the amount of questioned costs not addressed by
contracting officers.

Additionally, we reviewed pertinent Federal and departmental acquisition
regulations and guidance. We conducted this audit from February 2003 through
March 2007 in accordance with Generally Accepted Government Auditing
Standards prescribed by the Comptroller General of the United States and included
such tests as we considered necessary to detect fraud, abuse, or waste.




Exhibit A. Scope and Methodology
                                                                                      13




EXHIBIT B. DETAILED RESULTS OF 30 CONTRACTS REVIEWED




                    Operating                                          Audit
                  Administration         Contract Number             Obtained?
                                        DTFH6102Z00001                    Yes
                                        DTFH6103C00135                    No*
                       FHWA             DTFH6197C00010                    No
                                        DTFH6102C00007                    No
                                        DTFH6196Z00046                    No
                                        DTFR5300C00012                    Yes
                                        DTFR5301D00030                    No
                        FRA
                                        DTFR5394A00060                    No
                                        DTFR5393C00001                    Yes
                                        DTFT6098D41005                    No
                        FTA
                                        DTFT6099D41008                    Yes
                                        DTMA9195C00024                    Yes
                    MARAD **            DTMA8C00002                       Yes
                                        DTMA9190A10015                    Yes
                                        DTNH2201C07000                    No
                                        DTNH2201C17000                    No
                      NHTSA
                                        DTNH2201D01103                    No
                                        DTNH2295D08168                    No
                                        DTTS5999C00410                    Yes
                                        DTOS5996D00415                    Yes
                        OST             DTOS5996D00412                    No
                                        DTOS5996D00428                    No
                                        DTOS5996D00425                    No
                                        DTRS5696C0004                     No
                      PHMSA
                                        DTRS5600C0001                     No
                                        DTRS5797C00107                    Yes
                                        DTRS5700D30004                    No
                   RITA/VOLPE           DTRS5701D30003                    Yes
                                        DTRS5700C10045                    No
                                        DTRS5792C00077                    Yes
                                                                     Yes = 12
                        Total
                                                                      No =18
              *
                   Contracting officer adequately justified not obtaining an audit.
              **
                   MARAD consistently obtained audits (3 contracts/3 audits).




Exhibit B. Detailed Results of 30 Contracts Reviewed
                                                                    14




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Mark H. Zabarsky                     Deputy Assistant Inspector
                                        General for Financial
                                        Management Audits

  Kenneth Prather                      Program Director

  Dana Short                           Project Manager

  Michael P. Fruitman                  Communications Adviser

  Lawrence Heller                      Senior Auditor

  Adam Schentzel                       Senior Auditor

  Thomas Wiener                        Senior Analyst

  Allison Horkan                       Auditor




Exhibit C. Major Contributors to This Report
                                                                                                       15



           APPENDIX. MANAGEMENT COMMENTS


                                                            MEMORANDUM
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation

             ACTION: Response to Office of Inspector General (OIG)
Subject:     Draft Report, “More Incurred-Cost Audits of DOT                  Date:       August 7, 2007
             Procurement Contracts Should Be Obtained”


From:
            Linda J. Washington                                               Reply to
                                                                              Attn. of:
            Assistant Secretary for Administration

To:
            David A. Dobbs
            Principal Assistant Inspector General
             for Auditing and Evaluation

           We agree that audits, including incurred-cost audits for cost type contracts, are a critically
           important tool for ensuring that the Department’s contracts are executed efficiently,
           effectively and at the lowest possible cost. The Office of the Senior Procurement
           Executive (OSPE) has consistently worked to provide the necessary guidance and
           direction for the Department’s operating administrations (OA) to apply the appropriate
           use of audits for cost type contracts and to effect prompt action to determine whether
           questioned costs should be disallowed and recovered.

           During the last 5 years, several alternatives were considered to further the actions taken
           in this area. For example, OSPE sought the capability to centrally manage audit funding
           to better manage the allocation and application of audit activity. Alternatively, if audit
           funding continues to be managed independently in each OA, OSPE requested a dedicated
           resource to oversee the use of audits and ensure they are properly resolved. As noted in
           discussions with OIG during the course of this review, this dedicated resource could
           leverage the Department’s limited audit dollars, by enabling pooling where two or more
           OAs have cost contracts with the same contractor. Most recently OSPE developed a
           methodology whereby DCAA and the OAs work together to identify cost type contracts
           most suitable for audits and to better estimate the necessary audit hours. Discussions
           with the OA Chiefs of the Contracting Offices (COCOs) revealed that not all cost
           contracts identified by DCAA were of sufficient complexity to warrant auditor assistance.
           Therefore, rather than using the DCAA-provided list, in many cases, the COCOs opted to
           identify for themselves the contracts to be included in their fiscal year (FY) 08 audit plan.




           Appendix. Management Comments
                                                                                         16


Unfortunately, aside from some limited application of the enhanced planning option,
these alternatives have not moved forward, due largely to resource constraints.
Whichever alternative or methodology is employed to better manage the use and
disposition of incurred-cost audits in the Department, greater resources will be necessary.
Recent resource trends have not been encouraging. Staffing of the GS-1102
(procurement) career series in DOT has decreased over the past 5 years by ten percent.
In OSPE, staffing has decreased by nearly half over the same period, while
responsibilities have increased. Dedicated contracting resources, both in the OAs and in
OSPE must be increased in order for the Department to have sufficient capability to
better ensure that contract audits are effectively planned, implemented and acted upon.

Recommendations and Responses

Recommendation 1a: Require OAs to review the FY 2007 contract audit plan submitted
to the Office of the Senior Procurement Executive and document justifications for any
revision.

Response: Concur. Within 30 days after the issuance of the OIG final report OSPE will
issue a memorandum to the OA COCOs calling upon them to review the FY 2007
contract audit plan and document justifications for revisions.

Recommendation 1b: Require OAs to submit the revised FY 2007 contract audit plan to
the Office of the Senior Procurement Executive for approval.

Response: Concur in part. Since it is now well into the 4th quarter of the fiscal year, it
would be most constructive for the OAs to identify planned contract audits not
implemented during FY 07 and include them in their FY 08 audit plan. Further,
justification and approval of audit plans are a responsibility of each COCO and their
Administrator. However, to encourage timely and effective completion of each OAs
contract audit plan, the memorandum described above will include direction to provide
OSPE with a copy of the FY 08 plan for review prior to the start of the fiscal year.

Recommendation 1c: Require Operating Administrations to resolve the $12.7 million
($11.7 million and $1 million) in questioned costs that OAs have not addressed and
report any resulting costs recovered to our office, the Senior Procurement Executive, and
Administrators of each OA.

Response: Concur. The aforementioned memorandum will encourage OAs to
expeditiously complete action on any pending audit findings with questioned costs.
These costs should be reported to the Head of the Contracting Activity (HCA) and OSPE
will also request a copy of the information describing final disposition.

Recommendation 1d: Require Operating Administrations to update the list of DCAA-
reported unresolved questioned costs that are more than 6 months old as of October 2006;
resolve those costs; and report any costs recovered to our office, the Senior Procurement
Executive, and Administrators of each Operating Administration.




Appendix. Management Comments
                                                                                        17


Response: Concur. The aforementioned memorandum will include direction to the OAs
to complete the recommended actions and report results to the HCA and to OSPE.

Recommendation 2: Ensure that Operating Administrations obtain incurred-cost audits
and that audit report recommendations are resolved within 6 months of issuance of the
final report.

Response: Concur in part. OSPE will use the aforementioned memorandum to reiterate
the Department’s policy to the OAs regarding the use of incurred-cost audits. In addition,
it will use the forum provided by the Procurement Management Council to ensure that
there is complete understanding of the policy. However, lacking direct management
control of each OA’s contract administration offices, or a centralized capability to direct
and fund audits, OSPE is not in a position to ensure the recommended actions. Further, it
is not always possible to resolve audit report recommendations within 6 months of the
issuance of the final report because some contracts are more complex and resolution may
require additional actions by DCAA or the contractor. As an alternative, in FY 08 the
OAs will begin submitting quarterly status reports against their audit plans. The status
reports will address audit hours used, resolved and unresolved questioned costs, and
whether justifications have been placed in the contract file where audits were not
requested.

Other Action Requested: The draft report requested management comment on its $8.0 to
$10.3 million savings estimate related to additional incurred-cost audits for FY 2001
through FY 2005. Management understands, through discussions with the OIG that this
range represents an extrapolation of historic sustainment rates of questioned costs applied
to the pending $12.7 million of questioned costs outstanding from previous audits. While
we understand the basis of the estimate, it is not possible without a detailed examination
of each contract, the costs questioned, and the reason that they have not been acted upon,
to determine whether a straight line extrapolation offers an accurate estimate of potential
recoveries. Nonetheless, lacking more precise estimates, it is not an unreasonable
estimate to be used for tracking purposes.




Appendix. Management Comments
